No. 19-968

 

 

IN THE
Supreme Court of the United States

CHIKE UZUEGBUNAM, ET AL.,

Petitioners,
v.

STANLEY C. PRECZEWSKI, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

BRIEF AMICUS CURIAE OF THE
BECKET FUND FOR RELIGIOUS LIBERTY
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,603 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 29, 2020.

 

Colin Casey Ffgan
Wilson-Epes Printing Co., Inc.
